Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




ARKANSAS GENERALLY SUPPORTED
ITS CLAIM FOR FEDERAL MEDICAID
        REIMBURSEMENT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                      January 2013
                                                      A-06-10-00098
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

  For the quarter ended June 30, 2010, Arkansas generally supported its claim for Federal
  reimbursement with actual recorded expenditures. However, there were issues with
  Arkansas’ procedures for preparing the claim.

Why We Did This Review

In its Implementation Guidance, the Office of Management and Budget identified the Medicaid
program as a program at risk for significant erroneous payments. Previous work in the Medicaid
program showed that the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), did not always reconcile to claim data. Because
CMS-64 reporting could be vulnerable to fraud, waste, and abuse, we have conducted audits of
multiple States’ CMS-64 reports since 2009.

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

Background

In Arkansas, the Department of Human Services (State agency) administers the Medicaid
program. The State agency claims Medicaid expenditures and the associated Federal share on
the CMS-64 report. This form shows the disposition of Medicaid funds used to pay for medical
and administrative expenditures for the quarter being reported and any prior-period adjustments.
The amounts the State agency reports on the CMS-64 report must represent actual expenditures.
In addition, all supporting documentation must be readily reviewable and available at the time
the claim is filed.

What We Found

For the quarter ended June 30, 2010, the State agency generally supported its claim for Federal
reimbursement with actual recorded expenditures. However, the State agency used a manual
process to compile costs, which caused errors in both claiming Federal reimbursement and
reporting for informational purposes.

Additionally, the State agency did not archive supporting claim data at the time the CMS-64
report was filed. As a result, the records were not immediately available or in readily reviewable
form.

What We Recommend

We recommend that the State agency:

    •   establish review procedures to ensure that expenditures are correctly compiled and
        claimed on the CMS-64 report,



Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                 i
    •   address the misreporting of expenditures during the compilation of the CMS-64 report,
        and

    •   archive claim data when the CMS-64 report is filed.

State Agency Comments

The State agency concurred with all of our recommendations.




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                              ii
                                                    TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION.......................................................................................................................1

           Why We Did This Review ..............................................................................................1

           Objective ..........................................................................................................................1

           Background .....................................................................................................................1

           How We Conducted This Review ..................................................................................2

FINDINGS ...................................................................................................................................2

          Federal Requirements .....................................................................................................2

          The State Agency Used a Manual Process To Compile Expenditures
           for the CMS-64 Report .................................................................................................3
                 The State Agency Overreported Expenditures .....................................................3
                 The State Agency Misreported Expenditures .......................................................3

          The State Agency Did Not Archive Claim Data ...........................................................4

RECOMMENDATIONS............................................................................................................4

STATE AGENCY COMMENTS ..............................................................................................4

APPENDIXES

           A: AUDIT SCOPE AND METHODOLOGY .............................................................5
           B: STATE AGENCY COMMENTS ............................................................................7




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                                                             iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

In its Implementation Guidance, the Office of Management and Budget identified the Medicaid
program as a program at risk for significant erroneous payments. Previous work in the Medicaid
program showed that the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), did not always reconcile to claim data. Because
CMS-64 reporting could be vulnerable to fraud, waste, and abuse, we have conducted audits of
multiple States’ CMS-64 reports since 2009.

OBJECTIVE

Our objective was to determine whether the Department of Human Services’ (State agency)
claim for Federal reimbursement of Medicaid expenditures was adequately supported by actual
recorded expenditures.

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the program. Each State administers its Medicaid program in accordance with a CMS-approved
State plan. In Arkansas, the State agency administers the Medicaid program. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

As part of the implementation of their Medicaid programs, States may submit waiver requests to
CMS. These waivers, when approved, allow exceptions to certain requirements or limitations of
the Social Security Act (the Act). Section 1115 of the Act authorizes research and demonstration
projects, under which States may demonstrate and evaluate policy approaches, such as expanding
eligibility and using innovative service delivery systems. Arkansas operates its Medicaid
program primarily using a fee-for-service payment system and several section 1115 waivers.

The State agency claims Medicaid expenditures and the associated Federal share on the
CMS-64 report. The CMS-64 report is an accounting statement that the State agency must
submit to CMS within 30 days after the end of each quarter. This form shows the disposition of
Medicaid funds used to pay for medical and administrative expenditures for the reporting period
and any prior-period adjustments. The amounts the State agency reports on the CMS-64 report
must represent actual expenditures.

The CMS Regional Office conducts quarterly reviews of the CMS-64 report, during which staff
members examine the accounting records the State agency used to support the claimed costs.
The office of the Arkansas Division of Legislative Audit (Legislative Audit Division) also
conducts reviews of the CMS-64 report.




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                1
HOW WE CONDUCTED THIS REVIEW

The State agency claimed Medicaid costs totaling a little less than $1.1 billion ($890 million
Federal share) for the quarter ended June 30, 2010. We assessed the overall accuracy of amounts
claimed on the CMS-64 report by tracing them to supporting summary reports from the State
agency’s accounting system. We then selected 10 CMS-64 report line item amounts totaling
nearly $778 million ($631 million Federal share), which was more than 70 percent of the State
agency’s claimed expenditures for the quarter. We traced expenditures included in the selected
line items to detailed records and analyzed them.

To assess the reliability of the State agency’s data, we (1) performed electronic testing for
obvious errors in accuracy and completeness, (2) reviewed information about the data and the
system that produced the data, and (3) worked closely with State agency officials to identify any
data problems. When we found discrepancies, we brought them to the State agency’s attention
and worked with State agency officials before conducting our analyses. We determined that the
data was sufficiently reliable for the purposes of our audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

Appendix A contains the details of our audit scope and methodology.

                                              FINDINGS

For the quarter ended June 30, 2010, the State agency generally supported its claim for Federal
reimbursement with actual recorded expenditures. However, the State agency used a manual
process to compile costs, which caused errors in both claiming Federal reimbursement and
reporting for informational purposes.

Additionally, the State agency did not archive supporting claim data at the time the CMS-64
report was filed. As a result, the records were not immediately available or in readily reviewable
form.

FEDERAL REQUIREMENTS

Section 2500.2 of the CMS State Medicaid Manual instructs States to: “Report only
expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and which is immediately available when the claim is filed.” Federal regulations (42
CFR § 433.32(a)) require that the State agency “[m]aintain an accounting system and supporting
fiscal records to assure that claims [reported on the CMS-64 report] for Federal funds are in
accord with applicable Federal requirements .... ”




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                2
THE STATE AGENCY USED A MANUAL PROCESS TO COMPILE EXPENDITURES
FOR THE CMS-64 REPORT

The State agency used an electronic spreadsheet with 271 separate schedules to compile
expenditures for the CMS-64 report. The State agency used this electronic spreadsheet to
manually manipulate expenditure reports produced from the State agency’s claims system. The
manual manipulations designed by one State agency official included splitting expenditures into
the fee-for-service and waiver portions of the CMS-64 report, adjusting expenditures, and adding
nonclaim expenditures. Because no other State agency official was familiar with the complete
process of creating the spreadsheet, it was not reviewed. The State agency overreported
expenditures on the CMS-64 report by $43,076,448 ($34,969,459 Federal share) and misreported
expenditures on the CMS-64 report by $11,865,790.

The State Agency Overreported Expenditures

The State agency overreported expenditures on the CMS-64 report by $43,076,448 ($34,969,459
Federal share) because the State agency official preparing the electronic spreadsheet:

    •   added rather than subtracted hospital settlement costs of $19,815,757 to the CMS-64
        report line item for inpatient hospital expenditures, causing expenditures to be
        overreported by twice that amount, or $39,631,514 (32,172,863 Federal share), and

    •   added breast and cervical cancer expenditures to the original expenditure reports’
        amounts even though they were already included, causing expenditures to be
        overreported by $3,444,934 ($2,796,596 Federal share).

Beginning with State fiscal year 2010 (July 1, 2009, through June 30, 2010), the Legislative
Audit Division’s reviews of the CMS-64 report included tracing the CMS-64 amounts to the
State agency’s supporting summary reports. As a result, the Legislative Audit Division
identified the overreported hospital settlement costs before the Office of Inspector General (OIG)
began this audit. OIG identified the overreported breast and cervical cancer expenditures and
informed the State agency of them. The Legislative Audit Division included both amounts in the
State of Arkansas Single Audit Report for Year Ended June 30, 2010, and the State agency made
adjustments to the CMS-64 report for the quarter ended September 30, 2010, to correct the
overreported expenditures.

The State Agency Misreported Expenditures

When the State agency allocated expenditures to the waiver portions of the CMS-64 report, it
included $11,865,790 in expenditures twice, once for each of two waivers. The official who
designed the spreadsheet included formulas that decreased the expenditures on the fee-for-
service portion by the duplicated amounts; thus, the overall expenditures were not overreported.
However, the fee-for-service amount was underreported and one waiver’s expenditures were
overreported.




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                 3
THE STATE AGENCY DID NOT ARCHIVE CLAIM DATA

The State agency did not archive claim data when it filed the CMS-64 report; thus, State agency
officials had to re-create the data at the start of the audit. In fact, State agency officials told OIG
staff at the beginning of the audit that, based on previous history and the lack of archiving, they
did not expect to be able to provide data that would reconcile to the amounts claimed on the
CMS-64 report. Also, State agency officials were unfamiliar with the claim data they provided,
which caused OIG audit staff to continuously request additional information over a period of 18
months even though the supporting documentation should have been available in readily
reviewable form. As a result, the claim data for the select lines did not completely reconcile to
the amount on the CMS-64 report, but the overall difference was immaterial and less than 1
percent of the line amounts.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   establish review procedures to ensure that expenditures are correctly compiled and
        claimed on the CMS-64 report,

    •   address the misreporting of expenditures during the compilation of the CMS-64 report,
        and

    •   archive claim data when the CMS-64 report is filed.

STATE AGENCY COMMENTS

The State agency concurred with all of our recommendations and described corrective actions
that it had taken or planned to take. The State agency’s comments appear in their entirety as
Appendix B.




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                    4
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The State agency claimed Medicaid costs totaling just under $1.1 billion ($890 million Federal
share) for the quarter ended June 30, 2010. We did not include some expenditures the State
agency claimed for family planning services because we reviewed them in more detail during a
separate review. 1
To assess the reliability of the State agency’s data, we (1) performed electronic testing for
obvious errors in accuracy and completeness, (2) reviewed information about the data and the
system that produced the data, and (3) worked closely with State agency officials to identify any
data problems. When we found discrepancies, we brought them to the State agency’s attention
and worked with State agency officials before conducting our analyses. We determined that the
data was sufficiently reliable for the purposes of our report.
We limited our review of supporting documentation to records that the State agency maintained;
we did not evaluate claims submitted by providers to determine their validity. Our objective did
not require a review of the overall internal control structure of the State agency. Therefore, we
limited our internal control review to the State agency’s procedures for aggregating Medicaid
expenditures on the CMS-64 report.
We conducted fieldwork at the State agency’s offices in Little Rock, Arkansas.

METHODOLOGY
To accomplish our objectives, we:

     •   reviewed applicable Federal laws and regulations and State plan sections;

     •   interviewed the CMS official responsible for monitoring the CMS-64 report;

     •   interviewed State agency officials to obtain an understanding of their policies and
         procedures for reporting Medicaid costs on the CMS-64 report;

     •   interviewed Legislative Audit Division officials and reviewed their audit documentation
         and final report regarding their review of the CMS-64 report;

     •   analyzed the State agency’s procedures for aggregating Medicaid expenditures for the
         CMS-64 report to assess whether they would produce a reasonable and accurate claim
         for Federal reimbursement;

     •   acquired an understanding of the State agency’s Medicaid waiver programs;



1
 The State agency claimed family planning expenditures totaling $4,039,816 on the CMS-64 report and received
$3,635,834 in Federal share for them. These expenditures will be addressed in a separate report (A-06-11-00022).

Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                                 5
                                                                                APPENDIX A

    •   assessed the overall accuracy of amounts claimed on the CMS-64 report by tracing them
        to supporting summary reports from the State agency’s accounting system;

    •   selected 10 CMS-64 report line item amounts totaling nearly $778 million ($631 million
        Federal share), which was more than 70 percent of the State agency’s claimed
        expenditures for the quarter;

    •   traced expenditures included in the selected line items to detailed records and analyzed
        them;

    •   selected and reviewed supporting documentation for a judgmental sample of
        expenditures that State agency officials manually entered into the State agency’s
        accounting system; and

    •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                 6
                        APPENDIX B: STATE AGENCY COMMENTS



                                     Division of Medical Services
                                   P.O. Box 1437, Slot S-401 · Little Rock, AR 72203-1437
                                   501-682-8292 · Fax: 501-682-1197 · TDD: 501-682-6789




January 2, 2013

Patricia Wheeler
Regional Inspector General for Audit Services
DHHS, Office of Inspector General
Office of Audit Services, Region VI
1100 Commerce Street, Room 632
Dallas, TX 75242

SUBJECT: OIG audit number A-06-10-00098 draft report entitled “Arkansas Generally
Supported Its Claim for Federal Medicaid Reimbursement.”

Dear Ms. Wheeler:

Below please find the Arkansas Department of Human Services – Division of Medical Services
(DMS) draft response to your letter dated October 30, 2012 requesting written comments on the
recommendations included in the draft report of OIG audit number A-06-10-00098. The
recommendations along with our initial draft responses are as follows:

    1) Establish review procedures to ensure that expenditures are correctly compiled and claimed on
       the CMS-64 report

                    DMS concurs with this recommendation. The state’s own review process
                    identified the over-reported hospital settlement costs and the state identified the
                    error to the Arkansas Legislative Auditor. The over-reported breast and
                    cervical cancer was identified by the Office of Inspector General Auditor’s and
                    adjustments were made to the CMS-64 report for September 30, 2010. The
                    reporting errors did not have any impact on the amount of federal funds drawn.
                    Additional review procedures have been implemented including a check feature
                    added to the spreadsheet to create an overall comparative to the Category of
                    Service amount to the allocated cost in the report which will identify any
                    allocation issues. Staff continues to train on the reporting process with guidance
                    from CMS personnel.

    2) Address the misreporting of expenditures during the compilation of the CMS-64 report

                    DMS concurs with this recommendation. The spreadsheet utilized to complete
                    the CMS-64 has been changed to correctly report the fee-for service and waiver
                    amounts. As additional lines are added to the CMS-64, the spreadsheet will be
                    updated and formulas and links will be reviewed by the Agency Controller. As




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                                   7
                                                                                   APPENDIX B

                    above, the Staff continues to train on the reporting process with guidance from
                    CMS personnel.


    3) Archive claim data when the CMS-64 report if filed

                    DMS concurs with this recommendation. New reports with detail claim data
                    have been developed to address specific issues and have been available since
                    July 2011. All claims data are archived in the data warehouse. This does
                    require a query to pull claims for any specific line from the CMS-64. The
                    financial transactions cause some difficulty in reconciling due to archiving.
                    Arkansas MMIS is a legacy system that is in process of being bid through a
                    Request for Proposal. This issue should be addressed fully in the new MMIS
                    system.

If you have any questions or need to discuss this further, please contact Sharon Jordan at
Sharon.Jordan@arkansas.gov or Thomas Carlisle at Thomas.Carlisle@arkansas.gov .

Sincerely,



Andrew Allison
Director, Division of Medical Services
Department of Human Services




Arkansas’ Claim for Federal Medicaid Reimbursement (A-06-10-00098)                               8
